  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




  WISCONSIN IMPROPERLY CLAIMED
FEDERAL MEDICAID REIMBURSEMENT
FOR MOST RESIDENTIAL CARE CENTER
            PAYMENTS
    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                       September 2013
                                                        A-05-07-00036
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                   Notices


              THIS REPORT IS AVAILABLE TO THE PUBLIC
                        at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its
publicly available reports on the OIG Web site.

       OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and any other
conclusions and recommendations in this report represent the findings and opinions
of OAS. Authorized officials of the HHS operating divisions will make final
determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. The Centers for Medicare
& Medicaid Services (CMS) administers the program at the Federal level. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. States claim costs for Medicaid reimbursement on
a quarterly basis using the Form CMS-64 (CMS-64). In Wisconsin, the Department of Health
Services (State agency) administers the Medicaid program.

Prior to our audit period, the State agency contracted with a consultant to develop initiatives to
target new revenues that might be available to the State. The consultant advised that, in
accordance with section 1905(r)(5) of the Act, Residential Care Center (RCC) payments contain
treatment services provided by youth care workers and social workers that could be claimed as
“other services” under the State’s Medicaid Early and Periodic Screening, Diagnostic, and
Treatment program, known as HealthCheck. At that time, the State agency had not been
claiming these treatment services as costs for Medicaid reimbursement. The consultant created a
new Medicaid allocation methodology for claiming RCC payments that the State agency
implemented in Federal fiscal year (FFY) 2005. In the first year alone, the new allocation
methodology increased the RCC payments claimed for Medicaid reimbursement by $18,302,620
($10,674,089 Federal share). During our audit period, October 1, 2004, through September 30,
2006, the State agency claimed RCC payments totaling $41,382,076 ($23,986,398 Federal share)
on its quarterly CMS-64.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for Federal reimbursement for
RCC HealthCheck costs complied with Federal requirements.

SUMMARY OF FINDING

Most of the State agency’s claims for RCC payments under the HealthCheck program did not
comply with Federal requirements. Of the $41,382,076 ($23,986,398 Federal share) that the
State agency claimed on its quarterly CMS-64 for RCC payments under the HealthCheck
program, $39,405,030 ($22,839,628 Federal share) was unallowable. The State agency used a
cost allocation methodology that did not comply with Federal requirements. The methodology
used estimates that it could not adequately support. In addition, the State claimed unsupported
administrative costs as an add-on to the RCC service costs. The remaining $1,977,046
($1,146,770 Federal share) was allowable.




                                                i
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $22,839,628 to the Federal Government for unallowable RCC costs claimed under
       HealthCheck and

   •   work with CMS to identify payment and allocation methodologies for claiming allowable
       Medicaid RCC costs under HealthCheck.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency did not concur with our
recommendations. The State agency said that we misapplied the cost principles set forth in
Office of Management and Budget Circular A-87 to question Medicaid costs, inaccurately cited
the regulation at 42 CFR § 447.203 as a requirement for supporting documentation, and
inappropriately considered RCC support costs as administrative costs. We maintain that our
findings and recommendations are valid.




                                              ii
                                                 TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION ...............................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicaid Program ..........................................................................................1
              Residential Care Center Reimbursement Methodology ................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................3

FINDING AND RECOMMENDATIONS .........................................................................3

          FEDERAL REQUIREMENTS ..................................................................................4

          MOST HEALTHCHECK BASE RATE COSTS CLAIMED
           WERE UNALLOWABLE ......................................................................................4

          HEALTHCHECK ADMINISTRATIVE RATE COSTS CLAIMED
           WERE UNALLOWABLE……………………………………………………………...6

          RECOMMENDATIONS ...........................................................................................6

          STATE AGENCY COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................6
                Office of Management and Budget Circular A-87 ........................................7
                Regulation at 42 CFR Section 447.203..........................................................7
                Residential Care Center Support Costs ..........................................................8

APPENDIXES

          A: WISCONSIN’S TOTAL RESIDENTIAL CARE CENTER COSTS
              ALLOCATED TO MEDICAID

          B: STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. States claim costs for Medicaid reimbursement on
a quarterly basis using the Form CMS-64 (CMS-64). In Wisconsin, the Department of Health
Services (State agency) administers the Medicaid program.

During our audit period, 27 Residential Care Centers (RCC) throughout Wisconsin voluntarily
participated in the State’s Medicaid Early and Periodic Screening, Diagnostic, and Treatment
(EPSDT) program, known as HealthCheck. The RCCs are private, nongovernmental entities that
provide custodial care and treatment for children, youth, and young adults. The services
provided at the RCCs are performed primarily by youth care workers and social workers. In
addition, a portion of the services are provided by medical professionals such as psychiatrists and
psychologists.

The State agency purchases residential care services from the RCCs and reimburses these centers
using daily billing rates (daily rates) that the Wisconsin Department of Children and Families
establishes for each RCC. Before claiming Federal reimbursement for its purchase of these
services, the State agency allocates portions of the daily rates to the following programs:
Medicaid, Foster Care, Education, and State-funded.

Under Federal cost principles and Medicaid regulations, costs claimed for Medicaid
reimbursement must be necessary and reasonable for proper and efficient administration of the
program, must be allocable to Federal awards in accordance with relative benefits received, and
must be adequately documented. States may claim reimbursement only for costs for which all
supporting documentation is available at the time the CMS-64 report is submitted.

Residential Care Center Reimbursement Methodology

In Federal fiscal year (FFY) 2005, the State began using an RCC reimbursement methodology
devised by the consultant it hired to target new revenues that might be available to the State. The
consultant advised that in accordance with section 1905(r)(5) of the Act, the RCC costs for
treatment services provided by youth care workers and social workers could be claimed as “other
services” under HealthCheck. At that time, the State agency had been excluding RCC treatment
services from its allocation of RCC costs claimed for Medicaid reimbursement. The consultant
developed a Medicaid reimbursement methodology for RCC costs that included two
components: (1) a HealthCheck base rate for each RCC, consisting of the estimated Medicaid

                                                1
portion of the RCC daily billing rate, and (2) a HealthCheck administrative rate, consisting of a
fixed percentage of the RCC daily rate. The administrative rate component is intended to cover
nontreatment expenses that the RCC incurred to implement and participate in HealthCheck. To
determine total costs for these services when claiming Medicaid reimbursement, the State agency
used both rates in its calculation; it listed these costs on the CMS-64 as “other practitioner
services.”

This reimbursement methodology significantly increased the dollar amount of the State agency’s
claims for Medicaid reimbursement for its purchase of RCC services. Specifically, the RCC
costs claimed for Medicaid reimbursement in FFY 2005, the first year that the State agency
implemented the methodology, increased by $18,302,620 ($10,674,089 Federal share).

Using the reimbursement methodology that its consultant developed, the State agency claimed
RCC costs of $41,382,076 ($23,986,398 Federal share) for the period October 1, 2004, through
September 30, 2006. Of the $41,382,076 ($23,986,398 Federal share) in RCC costs that the
State agency reported to CMS, $36,246,515 ($21,009,550 Federal share) related to HealthCheck
base rate costs, and $5,135,561 ($2,976,849 Federal share) related to HealthCheck administrative
rate costs.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for Federal reimbursement for
RCC HealthCheck costs complied with Federal requirements.

Scope

Our audit covered the period October 1, 2004, through September 30, 2006. During that time,
the State agency claimed $41,382,076 ($23,986,398 Federal share) in RCC costs as “other
practitioner services” on its CMS-64s.

Our audit objective did not require a review of the overall internal control structure of the State
agency. Therefore, we limited our review of internal controls to obtaining an understanding of
the State agency’s reporting, compiling, and allocating of RCC costs to the Medicaid program.
We looked at how HealthCheck base rates were developed, but we did not review or express an
opinion on how the RCC daily rates were developed.

We performed fieldwork at the State agency’s offices in Madison, Wisconsin, and Norris
Adolescent Center in Mukwonago, Wisconsin.




                                                 2
Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal laws and regulations and Wisconsin’s Medicaid State plan;

    •   reviewed documentation that the State agency provided to document the consultant’s
        advice on claiming RCC costs related to HealthCheck;

    •   held discussions with CMS and State agency officials about State policies, procedures,
        and guidance related to RCC reimbursement;

    •   traced RCC costs that the State agency submitted on the CMS-64 to its supporting
        schedule of billing amounts;

    •   analyzed the State agency’s methodology for claiming RCC costs under Medicaid;

    •   performed substantive tests at one RCC, Norris Adolescent Center, to obtain an
        understanding of a typical RCC program that participated in HealthCheck and the
        financial data that RCCs submit to the State agency; and

    •   evaluated the State agency’s methodology for reporting RCC payments made to 27 RCC
        providers participating in HealthCheck and allocating RCC costs to the Medicaid
        program for Federal reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                             FINDING AND RECOMMENDATIONS

Most of the State agency’s claims for Federal reimbursement for RCC costs under HealthCheck
did not comply with Federal requirements. Of the $41,382,076 ($23,986,398 Federal share) that
the State agency claimed on its quarterly CMS-64 for RCC costs under HealthCheck,
$39,405,030 ($22,839,628 Federal share) was unallowable. 1 The State agency used a cost
allocation methodology that did not comply with Federal requirements. The State agency’s
allocation methodology used estimates that it could not adequately support. In addition, the State
claimed unsupported administrative costs as an add-on to the RCC service costs. The remaining
$1,977,046 ($1,146,770 Federal share) was allowable.




1
 The unallowable RCC costs were $18,302,620 ($10,674,089 Federal share) for FFY 2005 and $21,102,410
($12,165,539 Federal share) for FFY 2006.

                                                     3
FEDERAL REQUIREMENTS

Section 1903(a)(1) of the Act authorizes Federal payment to the States of an amount equal to the
Federal medical assistance percentages 2 of the total amount expended during a quarter as
medical assistance under an approved State plan. To receive these payments, a State agency
must report these costs in accordance with Federal regulations and guidance, the CMS State
Medicaid Manual, section 2500.2, and Office of Management and Budget (OMB) Circular A-87,
Cost Principles for State, Local, and Indian Tribal Governments (relocated to 2 CFR part 225),
Appendix A, section C.

Federal regulations (42 CFR § 447.203) require the State to maintain documentation for payment
rates and make it available to the Department of Health and Human Services (HHS) on request.
Pursuant to the CMS State Medicaid Manual, section 2500.2(A), the State must report only
expenditures for which all supporting documentation, in readily reviewable form, has been
compiled and is immediately available when the claim is filed. OMB Circular A-87 (2 CFR
part 225), Appendix A, section C(1), states that allowable costs must be necessary and
reasonable for proper and efficient administration of the program, be allocable to Federal awards,
and be adequately documented. Under Appendix A, section C(3)(a), costs are allocable to
Medicaid in accordance with the relative benefits received by the Medicaid program.

CMS issued a “State Medicaid Director Letter” to the State agency on December 20, 1994. In
that letter, CMS outlined allowable administrative costs that may be claimed separately from
service costs. In accordance with CMS policy, States may not include the overhead costs of
operating a provider facility as a separate administrative cost. Because Medicaid providers have
agreed to accept service payment as payment in full, such providers may not claim an additional
cost as an administrative cost under the State plan.

MOST HEALTHCHECK BASE RATE COSTS CLAIMED WERE UNALLOWABLE

We determined that $34,269,469 ($19,862,780 Federal share) 3 of the HealthCheck base rate
costs claimed by the State agency on its CMS-64 was unallowable. The State agency calculated
the base rate portion of RCC service costs using a cost allocation methodology that did not
comply with Federal requirements. Using financial reports submitted by the RCCs, the State
estimated the costs allocable to Medicaid for each RCC cost category, including salaries. The
total of RCC costs allocated to Medicaid was then divided by the total costs reported by the RCC
for all services furnished, resulting in an estimated Medicaid percentage that was applied to each
RCC’s daily rate. This Medicaid percentage (the HealthCheck base rate) was used to determine
the proportion of the RCC’s daily rate that was claimed for Medicaid reimbursement. A large
part of the Medicaid percentage for each RCC was based on estimates of the proportion of salary
costs for youth care workers and social workers that were incurred in furnishing HealthCheck

2
 The amount that the Federal Government reimburses to State Medicaid agencies, known as Federal financial
participation or Federal share, is determined by the Federal medical assistance percentage (FMAP). The FMAP is a
variable rate that is based on a State’s relative per capita income.
3
 The unallowed base HealthCheck costs claimed were $15,885,124 ($9,264,205 Federal share) in FFY 2005 and
$18,384,345 ($10,598,575 Federal share) in FFY 2006.

                                                       4
services. The State agency could not adequately support the estimates of salary costs that were
allocated to Medicaid. We removed those unsupported estimates from the State agency’s
calculation of the HealthCheck base rate and recalculated the allowable Medicaid percentage.
We then applied the corrected percentage to RCC costs claimed by the State agency on its
CMS-64. (See Appendix A.)

The State agency relied on its consultant’s advice in determining the percentage of RCC salary
costs to allocate to the Medicaid program without validating whether the estimates the consultant
used were reasonable and relevant to Wisconsin RCCs. The salary costs for youth care workers
and social workers were the two largest cost categories at each RCC. The consultant estimated
that for all RCCs participating in HealthCheck, 80 percent of youth care workers’ and 75 percent
of social workers’ salary costs were allocable to Medicaid. These two estimates accounted for
approximately 90 percent of the costs allocated to Medicaid and used to calculate the Medicaid
percentage. However, the State agency’s support for these estimates did not comply with
OMB Circular A-87 cost principles for documenting and allocating costs or with Medicaid
requirements that payment rates and expenditures be adequately documented.

To support its Medicaid allocation estimates of 80 percent and 75 percent of RCC salary costs,
the State agency provided us with the following information:

    •   a timestudy the consultant performed in Texas for a different Federal program and
        timeframe;

    •   a statement of the consultant’s work experience in states other than Wisconsin;

    •   a statement that the consultant had held informal interviews with staff at 7 of 27
        Wisconsin RCCs, but no evidence to indicate which staff members were interviewed and
        how they responded;

    •   a statement that select RCC job descriptions were reviewed, but no evidence to indicate
        the number, type, or summary of job descriptions reviewed, such as identification of the
        responsibilities for each job description; and

    •   a statement that services included in individual plans of care prepared by select RCCs
        were reviewed, but no evidence to indicate the number and type of services identified in
        these plans of care.

The information that the State agency provided us did not adequately support its estimates of the
portion of RCC salary costs that were incurred in furnishing Medicaid services.




                                                5
HEALTHCHECK ADMINISTRATIVE RATE COSTS CLAIMED WERE
UNALLOWABLE

We determined that $5,135,561 ($2,976,849 Federal share) 4 of the administrative rate costs
claimed by the State agency on its CMS-64 as “other practitioner services” was unallowable.
These administrative costs were calculated using an unsupported estimated 8-percent factor that
was applied to each daily rate. The HealthCheck administrative rate was multiplied by the
number of resident days to determine the administrative costs claimed for each RCC. We
removed the unsupported estimate of 8 percent of the daily rate from the HealthCheck service
costs claimed by the State agency and recalculated the HealthCheck costs minus the unallowable
administrative costs claimed by the State agency. (See Appendix A.)

These claims for administrative costs did not comply with the requirements of OMB
Circular A-87 because the State agency had no support for the 8-percent factor it added to the
HealthCheck service costs claimed for Medicaid reimbursement. Also, contrary to OMB
Circular A-87, the State agency applied the 8-percent factor to daily rates paid by the State for
RCC services that benefited both Medicaid and non-Medicaid programs. Even if these separate
administrative costs are adequately supported, we question whether they are allowable under
CMS’s claiming policy as set forth in its December 20, 1994, State Medicaid Director letter.
Because Medicaid service providers agree to accept Medicaid service payment as payment in
full, RCCs should not be paid an additional amount as an administrative cost under the Medicaid
program.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $22,839,628 to the Federal Government for unallowable RCC costs claimed under
        HealthCheck and

    •   work with CMS to identify payment and allocation methodologies for claiming allowable
        Medicaid RCC costs under HealthCheck.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency did not concur with our
recommendations. The State’s nonconcurrence was based on its opinion that we misapplied the
cost principles set forth in OMB Circular A-87 to question Medicaid costs, inaccurately cited the
regulation at 42 CFR § 447.203 as a requirement for supporting documentation, and
inappropriately considered the RCC support costs as administrative costs. We disagree with the
State agency’s comments, and we maintain that our findings and recommendations are valid.
The State agency’s comments are included in their entirety as Appendix B.

4
  The unallowable administrative RCC HealthCheck payments claimed were $2,417,497 ($1,409,884 Federal share)
in FFY 2005 and $2,718,065 ($1,566,965 Federal share) in FFY 2006.

                                                     6
Office of Management and Budget Circular A-87

State Agency Comments

The State agency said that OMB Circular A-87 does not apply to the State’s development of
payment rates for Medicaid services provided by RCCs. The State agency’s position was that we
fundamentally misunderstood Wisconsin’s RCC Medicaid payment methodology by perceiving
that it is based on cost reimbursement rather than maximum fee. The State agency said that
OMB Circular A-87 applies to determining allowable costs incurred in administering Medicaid
but does not apply to Medicaid payment rates for Medicaid covered services. The State agency
concluded that the disallowance of FFP for the RCC base rate was unfounded because OMB
Circular A-87 is not applicable.

Office of Inspector General Response

We did not apply OMB Circular A-87 cost principles to question the State’s development of
RCC payment rates. Rather, we examined the allocation method that the State used to determine
what percentage of the RCC per diem payment should be claimed for FFP on the CMS-64.
These RCC payment rates reimburse services furnished by RCCs to individuals under multiple
programs, including Medicaid, Foster Care, Education, and State-funded programs. What the
State agency calls the Medicaid “base rate” is actually the State’s estimate of the percentage of
the RCC payment that could be allocated to Medicaid and not one of the other programs.
Therefore, under such circumstances OMB Circular A-87 cost principles do apply in determining
whether the costs claimed were reasonable and allocated to Medicaid according to the benefits
received. Our review focused on the evidence the State agency presented to demonstrate that it
had incurred Medicaid costs for the estimated percentage of the RCC payments it charged to
Medicaid. The State agency could not support its estimates of the Medicaid costs it claimed.

Regulation at 42 CFR Section 447.203

State Agency Comments

The State agency said that we erroneously paraphrased 42 CFR § 447.203 in establishing a legal
foundation that payment rates must be documented and supported. The State agency said that
the regulation requires only that the State maintain documentation of payment rates rather than
for payment rates and make it available to HHS on request. The State agency considered the
distinction between the words of and for very important, because it claimed that it complied with
the regulation when it provided us with a description of how it calculated the rates. The State
agency agreed that a State must maintain documentation of its “actual expenditures” for
Medicaid covered services.

Office of Inspector General Response

We disagree that the State agency maintained adequate documentation of the payment rates
related to services provided by RCCs. In accordance with 42 CFR § 447.201(b), the State
Medicaid plan must describe the policy and methods to be used in setting payment rates for each

                                                7
type of service in the State’s Medicaid program, and under 42 CFR § 447.203, it must maintain
documentation of those payment rates. The Wisconsin State Plan provides only that the State
will establish “maximum allowable fees” for EPSDT services furnished by RCCs.

We did not find a policy or method that the State used to calculate maximum fees for EPSDT
services furnished by RCCs. Rather, we found that the State agency established a per diem rate
to cover all the RCC providers’ costs for multiple programs and then estimated the percentage of
that rate that represented Medicaid expenditures. We examined whether those estimates were
supported by documentation and found that the State agency failed to provide sufficient
documentation of actual expenditures for Medicaid costs that were claimed as a percentage of the
RCC payment rate.

Residential Care Center Support Costs

State Agency Comments

The State agency said that we improperly considered the support rate component costs as
administrative costs. The State agency claimed that the “support rate” component of the
Medicaid payment was claimed as medical assistance and not as a cost of Medicaid
administration. Therefore, the State agency disagreed that we had established any basis for
disallowing RCC support rate payments claimed for FFP.

Office of Inspector General Response

We disagree with the State agency’s opinion that the Medicaid “support rate” may be claimed as
a separate medical assistance cost and added to the “base rate” paid for RCC services. The CMS
State Medicaid Director letter says that the payment rate for service costs should include the
provider’s overhead and other administrative costs related to furnishing the service. Our review
showed that the calculation of the RCC payment rates included reimbursement for both salaries
and administrative costs such as operating expenses and maintenance costs. A percentage of
RCC per diem payment was then allocated to Medicaid. Therefore, the RCCs would be properly
reimbursed for support costs under the RCC per diem rate, and the State should not claim
additional overhead costs to Medicaid.




                                               8
APPENDIXES
                                                                                                                                                                                                                             APPENDIX A
                                                                                                                                                                                                                             Page 1 of5
                                                                                    WISCONSIN'S TOTAL RESIDENTIAL CARE CENTER COSTS ALLOCATED TO MEDICAID


                                                                        October 2004 - September 2005                           October 2005- September 2006                           Totals -Federal Flscal Years 2005 & 2006
RCC Facility/ Program                RCCFacility                 Claimed            All£M1ilile     Questioned             Claimed          All()'Wclble       Questioned              Claimed               AllOWlble           Questioned

BenetLakeC&AT Qr                 -       _1     -       _J_$                                                                                                                    ...1 _       _95,~       L    _       ~37U $ _        _    9!.£!.6
Eau Cla1re Acad -STOP
                             -
                                          2A
                                     - ..1:.B- - _j_$ -
                                                           $            223,259
                                                                        -
                                                                                                                                                                                . $_     _    44~65   _u _ _          20~5   !.._ _       S,8,0~
Eau C lau-e A cadem;                                                                                                                                                            ...1 _       :!J..90,~   $_ _ ~82U$ _                 __198!.L87
Eau Cla1re Acd-Dewey             _       ..1:.C _       --t$ _ _ 1~8                                                                                                            ...! - __!_08,527. 1 $_ - _2,51~ $ -                  -   106_,2,83
Family & Ch ildren 1s ctr    -       -     L_       -     !...   -      .±!_6,623                                                                                               . $ _ _ 872].47 $ _ _ 49.22.91 L                  _       _g8,14:l_
Family Services                            4            -+$             97~3                                                                                                    ...! - l,i90,31£      ~-
                                                                                                                                                                                                       -   UQ,054$ -    _17802?4
Horrme Y&F Pro g1s           _-_51:!_-_ 1...-_                       1,28o,m                                                                                                    . $_  _3,0':!J6 1~ _     _    _ - L   _ 3~.3~
Horrme Y&FP -~est/A!                                                                                                                                                              $       742,385 $                $     +74£2_85
Horrme Y&FP-Neillsv11le                                                                                                                                                         . $ _ _2,87~37~ -        -    _- !... -  2&Z_4,9R_
Horrme Y&FP-Serenity                                                                                                                                                            ...! - ..3._39,727. $_ - - ::..J_$ - - 839,7'71
La d Lake                                                                                                                                                                       . $ _ _2,9~046-+J -      _j 89d§_O L  - 2.22,0,4<&_
Mercy Options CCI                                                                                                                                                               ...! - J.i89,4Jl $_ - 1i,02LJ_$ - _14642,89
M1Mraukee A cademy                                                                                                                                                              . $ _ _1,o~861J _ _ 20,787 L          _ 1,2Z_2,o~
Norris Ad o lescent Q.r                                                                                                                                                         ...! - 1§.37,~ $_ - 3~999_1$ - _1,45!..±'11
NW Passage .Assess                                                                                                                                                                $       479 038 $         27 419 $      451,6 19
NW Passage .Stab ilize                                                                                                                                                            $       174,803 $         10,048 $      164,755
NW Passage .QrJs                          13B             $             20~3                                                                                                    ...! - -..1.87."~1$- -            -_E,Jz3    $ - _ W._gl
NW Passage 1-Std Re s        _-_ 13.£.-_I!_--- 330,678                                                                                                                          , $_     _    7~873 $ _
                                                                                                                                                                                                   42d£8TL        _             _ ~.4<e_
NW Passage I·IntenSIYe
NW Passage I -STOP
                                 _       ~A-              $ __              ~0                                                                                                    $    30,99 1        n
                                                                                                                                                                                                    1,533 $
                                                                                                                                                                                $_-_1,2~59~---_ 68.§20--t!...-                    _!.u:i)q_
                                                                                                                                                                                                                                           29,458
                             -       -    14:£.._   - --t!...    -      13_8,022
NW Passage II -Boy s             _       ~c     _       -+$__           34~0                                                                                                    _! _ _222,~ I $_ _ $944 $ _                           _   68 !2_96
ODTC -Casey Hous e              _   _   1L _       !... _   ~.502                                                                                                               . $_     -    2~422~
                                                                                                                                                                                                   -              _ 24E_~!_
                                                                                                                                                                                                                   -                      £3,1~
ODTC -Cheryl Hou se                                                                                                                                                       ...! - ..1_35,3_ll $_ - 12,80:-t$ - _2 1~3
ODTC -Malil Bu!ldlilg                                                                                                                                                     . $ _ _1,5"U.) 77~ -       _j46~ !... -      1,£4,2~
ODTC -Main -IntenS!ve             _   .JIB_ + $ _ _ 55~1                                                                                                                  ...! - ..2_58,~ $_ - ..§.12~+$ - _ 87~1
ODTC -S awyerHous e             _ _ 1.t._ _        !._ _    ..1:.4,567                                                                                                    . $_ -     1 Q1.03 1~ -    -  9@ !... -       ...J],3f£:....
Rawh ide Boy s Ran ch             _   __!9 _   --1-$ _    _ 41£80                                                                                                         ...! - :!J._38,~ $_ - _g84€__j..$ - _1 12~23
St. Ame han -LakeS!de Co111'ass _   _ 206.._ _     !.._ _    20 1,674                                                                                                     . $_ -     3!.1._45 1-+J - _1 8,886 !... -    12_2,5~
St. Amehan-LakeS!de               _   .1f!B _  _J_$ _     _ 90 ~                                                                                                          ...! - l,il3.1ill, $_ - ~65€.j_$ - _170£19
St. Charle s                            21          $                                                                                                                     . $- -     3~83             _u -
                                                                                                                                                                                                       19~5 !... --     I!J,26£._
st. Rose Y&F ar                 - _-     _iz_-_l$_-       _26~6                                                                                                           ...1 _ ...J..27,7E:. $_ _ 12,21-:.l$ _ _ 490~8
Tormtrow' s Ch1ldr en                   23          $      1403 518                                                                                                         $     2707090 $            82631 $         2 624459
Willowglen-Ma in                        24         !._                                                                                                                      $       936,808 $          57,610 $          879,198
W illowg len+M ain.IntnsY                                                                                                                                                 ...! - -_34.1ill.T$_ - -_2,237 $ - - JM_:i4
W illowg len +M amtob a                                                                                              . L _ 1.J.1:!96_il _ _ ~ $ - _l2M~2... ' $ - - 31l§J05 $ - - 23..§§,3T!... - ]Z1,441,_
Wyalu s lilg Acaderiij                                                                                               ..!_ _ _.1_82,4781  1..__ _ _216~_1_$ _ _548,852 _ ...1 _    £12. ~n_ _ _2±,766-+$ _            _l,l3?2_86
Wyalusing A cad eiTij                                                                                                _$_ _ 11.._   994 I $ _ _ ~             lL _
                                                                                                                                                              ___l!,2.§§_ . $ _ _ 1!_1922 $ _ _ 6J~O 11.._ _            l.Q.5,81g_
Yo uth TC Wash Co-LSS                                                                                                  $      187,53:iT$          11,402 1 $   176,131      $       187,533~           11,402 1 $        176,131

                              Totals                                 19 347 990         1 045 370       18 302 620          22034,086              931 676          21102 410            41 382 076               1977 046            39 405030

                              Federal Share                          11283 748            609659        10 674 089          12 702650              537 111          12165 539            23 986 398               1146 770            22 839 628
                                                                                                                                                                                                                                       APPENDIX A
                                                                                                                                                                                                                                       Page 2 of5

                                                       WISCONSIN'S ALLOCATION OF TOTAL RESIDENTIAL CARE CENTER COSTS TO MEDICAID 

                                                                              OCTOBER 2004 - DECEMBER 2004 

c.l              c.2         c.3        c.4             c.s                c.6             c.7              c.S             c.9                c.lO              c.ll          c.l2      c.l3      c. !A                                          c.lS
CALCULATION OF TOTAL MEDICAID RCC COSTS                                                          BASE RATE RCC COSTS                                                          ADMINISTRATIVE RATE RCC COSTS
                                                                         Cost Alloc<Hion o/ &ate              Cost Alloc<Hion Cakulated o/ OIG                   Cost Alloc<Hion o/ &ate                Cost Alloc<Hion Calculated o/ OIG

                                      ToW 	                                                              Allowable
                                     Medicaid      Total Medicaid      Allocation                        Allocation                                           Allocation                            Allowed
                                                                                                          Percent      Allowable Costs Ques6.01.edCosts        Per cent  Allocated Costs           A.llocati.01.     Allowable Costs Questi01.ed Cos b
                                                                                                          (Note1)     ((c.3 x c.S) x c.2)) (c.7 - c9)          Applied ((c.3 x c.ll) x c.2))        Percent        ((c.3 x c.13) x c.2)) (c.12 • c.14)
                                                                                                                                                                  8_(X)% $                                                            s
                                                                                                                                                             -   _§OO~j'$--               4,913                                - ..:.tT_-             4.913
                                                                                                                                                                  8_(X)% $           .22.390_                                      .   $             57,390
                                                                                                                                                             -_§00~$_-                       53                                - ..:..j.T_-                sJ
                                                                                                                                                                   8.00% $           ....!!.51§_                                  . s      8,518
                                                                                                                                                             -_§oo~$--                24,839                                   - ..:JT_-_24.839
                                                                                                                                                                   8.00% $            39,514                                         s    39,514
                                                                                                                                                                                       4,716            o.oo%1 s                  -I s     4,716

                                                                                                                                                                                     _V4!..
                                                                                                                                                                                      51,717
                                                                                                                                                                                      20.229_
                                                                                                                                                                                      12.213
                                                                                                                                                                                      44.664_
                                                                                                                                                                                          8,987
                                                                                                                                                                                     _p38_
                                                                                                                                                                                          6 ,817
                                                                                                                                                                                     .Q.229_
                                                                                                                                                                                            604
                                                                                                                                                                                     _.!2.40L
                                                                                                                                                                                          9,344
                                                                                                                                                                                          4 .713
                                                                                                                                                                                     2.987­
                                                                                                                                                                                      31,558                                           s             31,558
                                                                                                                                                                                                                                   . 1.1..           19,447
                                                                                                                                                                                                                                   . s                  484
                                                                                                                                                                                                                                  --:1 s -            7,741
                                                                                                                                                                                                                               -. $           -          8,192
                                                                                                                                                                                                                                  -:t s ­
                                                                                                                                                                                                                               -,$_-                 30,193


                                                                                                                                                                                                                               - . .1.. -            12,070
                                                                                                                                                                                                                                  --=-+ s -        ___}9.225
                                                                                                                                                                                                                                  . s     19,418
                                                                                                                                                                                                                               - ..:.tT-- uso
                                                                                                                                                                                                                               _ . .1.. -              9,656
                                                                                                                                                                                                                                  ..:..j. $ -      ____?1.639
                                                                                                                                                                                                                                   . s                 2,738
                                                                                                                                                                                                                                   - IT
Totals 	                                                 4,566,981                        3,995,505                           292,179          3,703,326                            571,476                                                        571,476


Federal Share @5832%                                     2,663,464                        2,330,179                           170,399          2,159,780                            333,285 	                                                      333,285


    Note1 	   OIGallowabl r: allocation pncr:nt was calculated by removing the State 's allocations of salaries for Youth Care and Social Wo:rkers to Mediciad that weu: not adequately   docu~nted     Specifically. the se allocations were 

              calculated bas ed on Wl supported e ffort percentages the State's con sultant recotnnended as b e ing re a sonable. 

                                                                                                                                                                                                                                   APPENDIX A
                                                                                                                                                                                                                                   Page 3 of5

                               WISCONSIN'S ALLOCATION OF TOTAL RESIDENTIAL CARE CENTER COSTS TO MEDICAID 

                                                                 January 2005- September 2005 

c.l       c.2    c.3   c.4      c.S        c.6          c.7           c.B          c.9             c.lO   c.ll          c.12      c.13          c.14            c.lS
CALCULATION OF TOTAL MEDICAID RCC COSTS                      BASE RATE RCC COSTS                                     ADMINISTRATIVE RATE RCC COSTS
                                         Cost Allocation lp stale      Cost Allocation Calculaied o/ DIG Cost Allocation o/ stale   Cost Allocation Calculaied o/ DIG
                                            Total                                                                 Allowable
                                         :I.\t2d.caid     Totall\'ledicaid   Allocation 
                                                                                                            Allowed
                 Recipient     Daily    .Allocation         RCC Costs         Percent     Allocated Costs 
                                                                                        Allocation Allowable Costs Questioned Costs
                   Days        Rate       Percent       ((c.3 xcA)xc.2))      Applied ((c.3 xc.6)xc.2)) 
                                                                                           Percent ((c.3 x c.13) x c.2)) (c.12- c.14)
                         0         woo       6644% $                         5844% $
       2A            1,007      $264.39      70.13% $           186,715      62.13o/;;r$ -         165,416
- - 1!!..       ..!QJ.9l.J_ $257 84- 62.43% $ - - 1,640.~ - -5443o/!!j_f--""1:430,561_
      2C               118 I $172.31 I       85.~          _ _ 17.362_       77.3'Y'/o $             1 5,735
_      3    r 2.44.!.l_ $25300_j_ 62~:¥. _                    ~-'12L _-5460"/!!j_$_ -337 ,191_
       4
            r       4.293~ $269.89~ 67.~
                                             61 ~:v.~
                                                        t.
                                                             _-785,788       59.82% $              693,097
_

=---
      SA
      sB
       6
       7
            =--t=
              I
                    6, 190 I $255 oo I
                       85-:tr S263
                    s .zs:+ $2 55
                       25§:
                                    oa-r-
                                    ~+
                                $2 55 00
                                             61 ill:2J  t.
                                             76 56"/=-- -
                                             74 S'Y'/~1_!_
                                                                137,299      53.13% s
                                                              1.031,194- -68 56"/ol $
                                                                 48,692      66. S'Y'/o $
                                                                                             -=
                                                               964.906- - 5313o/!!L$_ -838.63.2_
                                                                                                   119.331
                                                                                                   923,44.!_
                                                                                                     43,470 



-=- ++
       8            6.~21s ~ 63 ss1i!Ls                     ___!1_48.351  _55 ss%1 L           ___.!.,003.791 

       9            3,299       $235.00      64.14%1 $          497,255      56.14% $              43 5,23.±_ 

      10 -     ---.!-~.J26L~72.37'!'i>i_$-- 3 74.422 - -64.37"/;;rL -_333.032
  _ _ 1_1_          9.2:-?: -t---f47 ~ t-6u"i%"G_s_ _ _1.403.65.2_           53.27"14-s _        1,220.37£                                                                                              O.OOo/~
_
     13A
  --1:ffi
              +
    __Q ____1. 11lJ .J230~ ..§1_78"/ol $ _ _ _ _
                       460
                   l.Zoo $199:00
                                $199.00      63.4J$
                                                                169,138
                                                                 58,100
                                                                          _ 55 78%1 L
                                                                             55.47"~To$ _
                                             63'"47o/.14= - - ms~ - _ss47"/o L
                                                                                               _147 ,923
                                                                                                   _j9.77]_
                                                                                               _132.462
                                                                                                                                                                                                     _0.~1 $_
                                                                                                                                                                                                        O.OOo/~
                                                                                                                                                                                                     _o.c~l$_
_ _ 13C         ___!_,_884--1- $199.00--l--- 62.80% $ _ _ __ll?.±!Z_         54.80"/!!J---:$ _     205.45.±_                                                                                          OOOo/~
_ ___!:!A__          __a l _ _ woo I____§~L_ ____ -_ _5578% L                                  _                                                                                                     _o.~ $_
     14B r          3.14Q.L S230.00_j_ 63.78"/o $               460,619      55.78"/!!j...,$ _     402,841_                                                                              57.776
                                             62.~ - - 282.062"
- - 14C
=---  15    r   2.257 I $199.00 I
                       5971 $270871
                       667T" $270.87~ 66.~ t_
                                                                             54.80"/o $
                                             66~~ _-108,168- _-5889"/!!j_$_ - 95,231
                                                                                                   246.130                                                                               35,932
                                                                                                                                                                                        lz.937
=---  16
     17 A =--t""=2,947 l $270871
     17B
                                                                120,851      58.8'Y'/o $
                                             6689% $_-533,952- _-58.89"/!!L$_ -470.092
                    1,6621""" $350.66-;- 67.28"/o $            392,106       59.28"/o $
                                                                                                   106,397

                                                                                                   J45,48l
                                                                                                                                                                                         14.454
                                                                                                                                                                                         63.860­
                                                                                                                                                                                         46,624

~ 19
      18

     20A
            -+         115
                    4.431
                                $27087
                                $199.61
                       8~-f65~6L5~$
                                             6689"~$             20.836
                                             41.22%1_!._-- 364,579
                                                                135,976
                                                                             58.89"/ol $
                                                                         --33.22% $
                                                                             53 58"/;;f"$ -
                                                                                                     18,344
                                                                                                   293 ,82.!_
                                                                                                   118,311
                                                                                                                                                                                          2,492
                                                                                                                                                                                         70.758
                                                                                                                                                                                         17 .665
- "'2oB -+4,180 $256.14 61:-ss";~l $ - - 6 59,316 - 53.58"/o $                                 - 573 ,661_                                                                              Ss,65J
      22
_ - 23 _
             +
_ - 2 1 _ _ ~ W~6761_'l-i>l_$_-_- ":'"'
                       938
               ___§.6W.J213
                                $267.03
                                    !&.t':
                                             63.96"M$           160,203
                                                                             59"61o/;;t'$ ­
                                                                          -55.96"/o $
                                             72 ~4hs _ -1.038.483 - 64"67"/:r$ -
                                                                                               -140,161_
                                                                                                   924,160
      24            3,247       $262.40      63.50"/o $         541,028  _-5 5.50"~To$_ -472,86]_ 

     25A               161      $183 50      80 01% $            23.638     72 01% $                 21,E5 

-    :ill!.     ....!J2.2...L. ~4<lJ_ ~% $ - - ..12?-121.. -5213o/~$ -166,881_ 

                                             61.~
-
     26A
     26B
      27
            r•
                    3.180 I $242 .37 I                          47 3.386     53"'42% $ -
                       21l.L $254.2-!..1_ 66.48"/o $ _ - 36,001- _ -5848"/!!j_$ - ..1.!- -66.2....
                         or        woo~ 57 55o/:rr                     -    495 5% $
                                                                                                   411 .727




Totals                                                        14,781,009                       12,934,989                        753,191         12,181,798                          1,846,020                                             1,846,020


Federal Share @58.32%                                          8,620,284                        7,543,685                        439,260          7,104,425                          1,076,599                                             1,076,599


    Note1        OIG allowable allocation p ercent was calculated by removing the State's allocations of salarie s for Youth Care and Social Workers to Mediciad that were not adequately documented. Specifically, the s e allocations were
                 calculated based on tmsupported e ffort p ercentag es the State's consultant re cornnended as b e ing reasonabl e.
                                                                                                                                                                                                                                   APPENDIX A
                                                                                                                                                                                                                                   Page 4 of5

                               WISCONSIN'S ALLOCATION OF TOTAL RESIDENTIAL CARE CENTER COSTS TO MEDICAID
                                                            OCTOBER 2005 - DECEMBER 2005
c.l       c.2    c.3   c.4      c. 5       c.6          c.7        c.S          c.9             c.W   c.ll          c.12    c.13         c.14          c.lS
CALCULATION OF TOTAL MEDICAID RCC COSTS                     BASE RATE RCC COSTS                                  ADMINISTRATIVE RATE RCC COSTS
                                         Cost Allocaiion 2 &aLe     Cost Allocaiion Colcultned 2 DIG Cost Allocaiion 2 &ate   CostAilocaiion Colcultned2 DIG

                                       ToW                                                                   Allowable
                                      Medicaid      Total Medicaid        Allocation                         Allocation                                        Allocation                             Allowed
                                                                                                              Per cent     Allowable Costs Questi01.ed Costs    Per cent       Allocated Costs       Allocati.01. Allowable Costs Questi.01.edCosb
                                                                                                              (Note 1)    ((c3 x c.li) x c2)) (c.7- c9)            Applied   ((c3 x c.ll) x c2))      Percent ((c.3 x c.13) x c.2)) (c.12- c.14)
                                                                                                                                                                     8~%·...!._             713         0_~     $_                 .1..       _]13
                                                                                                                                                                   _§.00~ $ -            12,691         O.OOo/~               --'-4$­      __12,691
                                                                                                                                                                     800% $             115249         O_OOo/o $               .    $       115249
                                                                                                                                                               -_§oo~$--                J30S         -OOOo/~-              - _:_f$-­          3,308
                                                                                                                                                                     8.00% s            .12.73Q...     O.OOo/o $               . s           17,730
                                                                                                                                                               -   _§OO~$_ ­             46,119      - 0 OO'Y'!!J­          - ..:...!T_-   _46.112.
                                                                                                                                                                     8.00%   s          ~.97Q...         O.OOo/o $             . s           75,970
                                                                                                                                                                     8.00%1$             29,fRl7         000%1$­               -IT           29.687




                                                                                                                                                                                        _ll.97 L
                                                                                                                                                                                         18,005
                                                                                                                                                                                        _1287_
                                                                                                                                                                                         10,163
                                                                                                                                                                                         40,674
                                                                                                                                                                                         19328           0.00%1 $              -I $          19328
                                                                                                                                                                                          2,644
                                                                                                                                                                                         46,0JL
                                                                                                                                                                                          8292
                                                                                                                                                                                         43.523
                                                                                                                                                                                        1J.9o?
                                                                                                                                                                                        .12.8JL
                                                                                                                                                                                         46,643
                                                                                                                                                                                         29.51L

                                                                                                                                                                                        ...!.P66_
                                                                                                                                                                                         30,888
                                                                                                                                                                                        _!,87!._
                                                                                                                                                                                          8,758

Totals                                                     8,399,282                                                                 408,711      6,939,963                          1,050,608                                            1,050,608 



Federal Share@ 57 .65o/o                                   4,842,186                          4,236,511                              235,622      4,000,889                            605,675                                             605,675 



   Note 1     OIG allowable allocation perc ent was calculated by removing the State's allocations of salarie s for Youth Care and Social Workers to Mediciad that were not adequately documented. Specifically. these allocations were
              calculated based on unsupporte d e ffort percentag es the State 's consultant ncolliilende d as b e ing re asonable.
                                                                                                                                                                                                                                             APPENDIX A
                                                                                                                                                                                                                                             Page 5 of5

                                                           WISCONSIN'S ALLOCATION OF TOTAL RESIDENTIAL CARE CENTER COSTS TO MEDICAID 

                                                                                                         Januacy 2006 - September 2006 

c.l       c.2    c.3   c.4      c.s                                            c.6             c.7          c.S      c.9                             c.lO                 c.ll                c.l2      c.l3      c.l4                             c.lS
CALCULATION OF TOTAL MEDICAID RCC COSTS                                                              BASE RATE RCC COSTS                                                                     ADMINISTRATIVE RATE RCC COSTS
                                                                             Cost Allocation by State             Cost Allocation Cakulated by OIG                      CostAllocation by State                      CostAllocation Calculated by OIG

                                      T otal                                                                  Allowable
                                    Medicaid            Total Medicaid      Allocation                        Allocation                                               Allocati.on                                Allowed
             Recipient     Daily   Allocati<m                                                                  Percent      AllowaU.e Costs Ques tim~.ed Costs          P er cent        Allocated Costs         Allocati<m Allowable Costs Ques ti<med Costs
               Days        Rate     Per cent                                                                   (Note1)     ((c.3xc.li)xc.2))   (c.7 - c.9)              Applied        ((c.3 x c.ll) x c.2))      Percent ((c.3 xc.13) xc.2)) (c.12 ­ c.14)
                                                                                                                                                                           8.00"/oi     s          _!Q.648_          0.00"/o   s             s          10,648
                                                                                                                                                                   - __11 ~.::§_j·s--               12,480       -000%~-               -..:...t-s_­     12,480
                                                                                                                                                                           8 00"/o      s        -157,801           0 00"/o    s          - s         l 57 ,801
                                                                                                                                                                   - __11 OOO..::§j""S-­           6;732         -O.OO%_J1­            -..:...tT_­       6,732
                                                                                                                                                                           8 00"/o      s          22.589_          Q_(X)% $             - s          J 6,589
                                                                                                                                                                   - __11 OO".i.js - -_60~                       -0.00"/o,U­           -_;_($_-_60.~
                                                                                                                                                                           8_000/o      s          160,872_          0_00%     s           s    160,872
                                                                                                                                                                           8ooo.&Js                 43 ,637      -   0.00"/olJ;­       - _:_f$          43,637
                                                                                                                                                                           8_()()0/o    s           95,017           0_000/o s              s           95,017
                                                                                                                                                                          8 ooo7.T.J...            ~.12L             ooo%n_            _-yJ_            55,125
                                                                                                                                                                          8 00"/o       s        _111,528            0 00"/o s           - s          _j]1 ,51!!_
                                                                                                                                                                         8ooo7.l        s-          67,900_        o.oo%1$               -:-rs­         67,900
                                                                                                                                                                   - __11~41s - ­                   44 ,728      -OOOo/1{­             - - T -_44,728
                                                                                                                                                                        8.00"/o         s          166,382_        0.00"/o     s        -:is­   166,382
                                                                                                                                                                   - __11 CX::4ts           -­      20,730       -OOOo/":H­            -_,T_-......J0,730
                                                                                                                                                                        8.00"/o         s          _2,363_         0.00"/o     s       _ - J_­      7,363
                                                                                                                                                                   - __11~~$--                      30,980       -000"/"f-!­
                                                                                                                                                                                                                                         -'-f    _]0,980
                                                                                                                                                                           8.00"/o      s           28,126_        0 .00% $               - ss -  28,126
                                                                                                                                                                   -     __l!oo_'~s - ­              3,323       -000"/o~-             -..:..J$_­ 3,323
                                                                                                                                                                           8.00"/o      s          ~.41L           0.00% $                - s      55,413
                                                                                                                                                                   - __11 OO".i.js - ­              28,913       -OOOo/o_U­            -..:..l$_­ 28,913
                                                                                                                                                                          8 00"/o       s          __!,31L_        0 00"/o     s         - s     -8jl5
                                                                                                                                                                   -     __l!.ooo.::§Js-­                        -O.OO%,U­             -..:JT_­
                                                                                                                                                                                 s
                                                                                                                                                                           8.000/o                  54,918           0.000/o   s           s            54,918
                                                                                                                                                                                 s
                                                                                                                                                                           8.00"/ol                 30,132           0.00%1    s         -Is            30,132
                                                                                                                                                                                 s
                                                                                                                                                                           8_000/o                   7 ,304          Q_(X)%    s           s             7,304
                                                                                                                                                                         8ooo7.1 s -               2!.964_           o.ooo/on            -ys­           ~964        ..
                                                                                                                                                                   -      8""'00>/o s        -        5,471      -o_OO%     $-         --T­                5 .~
                                                                                                                                                                         8ooo7.f        s-                                                -:is­        ~48-
                                                                                                                                                                   -     __l!~4ts - ­
                                                                                                                                                                                                   ..,2!!.748_
                                                                                                                                                                                                     32,587
                                                                                                                                                                                                                   0.00"/ot$
                                                                                                                                                                                                                 -oOO%         s­      -..,$_-        _]2.587
                                                                                                                                                                        8.00"/o         s          _k!.796_        o .oo%1$               - s           14,796
                                                                                                                                                                   - __11 CX::4ts - ­                98,794      -000"/o~-             -_,T_-         _98,794
                                                                                                                                                                        8.00"/o         s                          0.00% $                - s
                                                                                                                                                                   - __11~~$--                                   -000%~-               -..:..J$_­
                                                                                                                                                                           8.00"/o      s                          0.00"/o     s          - s
                                                                                                                                                                   - __11 00"~s - ­                 44!'29       -000%-JJ­             -..:...tT_-    _44.~
                                                                                                                                                                           8.00"/o      s          _i,694_         0.00"/o     s          - s              4 ,694
                                                                                                                                                                   -       800"/oiS          -     16,958        -o00%1        s­      --IT-              16,958

Totals                                                                                        11,967,347                           522,965                                                                                                         1,667,457


Federal Share@ 5 7 .65%                                                                                                            301 ,489          6,597,686                                                                                        961,289


   Note1     OIG allowable allocation percent   '\VaS   calculated by rem:>ving the State's allocations ofs alarie s for Youth Care and Social Workers to Medici ad that w ere not ade quately documented. Specifically. these allocation s were
             calculated based on unsupported dTort p e rce ntages the State's consultant reconnnende d as b eing reason able
                             STATE AGENCY COMMENTS
                                                                                                     APPENDIXB
                                                                                                      Page 1 of 16




                    State of Wisconsin
                    Department of Health Services
                    Scott Walker, Governor
                    Kitty Rhoades, Secretary




May 29,20 13



Ms. Sheri L. Fulcher
Regional Inspector General for Audit Services
U.S. Department ofHealth and Human Services
Office ofInspector General
Office ofAudit Services, Region V
233 North Michigan Avenue, Suite 1360
Chicago, IL 60601

Re: Report No: A-05-07-00036

Dear Ms. Fulcher:

This letter sets forth the comments of the Wisconsin Department of Health Services (WIDHS)
regarding the U.S. Department of Health and Human Services, Office oflnspector General's -(OIG)
draft report entitled Wisconsin Improperly Claimed Federal Medicaid Reimbursement for Most
Residential Care Center Payments, Report No: A-05-07-00036, da ted March 13, 201 3 (hereinafter,
"Draft").

The Draft m akes two recommendations:

   • 	 Refund $22,839,628 to the Federal Government for unallowable RCC Costs claimed under
       HealthCheck
   • 	 Work with CMS to identify payment and allocation methodologies for claiming allowable
       Medicaid RCC costs under HealthCheck.

WIDHS does not concur with these recommendations, for the reasons set forth below.


Background

Since the early 1970's, Wisconsin has provided menta l health services to Wisconsin residents through
county agencies. The services include institutional, outpatient and other community-based services.
Initially, these services were funded exclusively by state "community aids" funds and county matching
funds. Each county is required to spend county fund s eq ua ling approximately 10% of the county' s
state community aids allocation on a llowable human ser vices costs in order to earn its allocation of
state funds.

      1 West Wilson Street • Post Office Box 7850 • Madison, \XII 53707-7850 • Telephone 608-266-9622 •
                                              dhs.wisconsin.gov
                    Protecting and promoting the h ealth am/ safety ofthe p eople of Wisconsin
                             STATE AGENCY COMMENTS 

                                                                                                   APPENDIXB
                                                                                                    Page 2 of16




In the years following the development of this system ofdelivering mental health services, Wisconsin
gradually added traditionally state/count y community aids-funded mental health services as covered
services under its State Medicaid Plan. Among the services currently covered under the Wisconsin
State Medicaid Plan under the federal rehabilitative services category are Community Support Program
services, mental health Crisis Intervention services, mental health Medical Day Treatment services,
Outpatient Psychotherapy services, and services for individuals over age 65 in Institutions for Mental
Disease (IMD ). Wisconsin claims Federal Financial Participation (FFP) in Medicaid payments for
these services.

W isconsin has been providing services to youth in Residential Care Centers (RCC) for many years.
RCCs are privately-operated residential fac ilities for indiv iduals under 2 1 years of age who require
intensive services to address serious emotional disturbances, as well as other problems. Among other
things, RCCs are required by state regulations to provide initial and periodic "HealthCheck" physical
and mental examinations for all residents. [" HealthCheck" is Wisconsin's name for the federal
Medicaid Early and Periodic Screening, Diagnosis and Treatment (EPSDT) mandate. ] Wisconsin
youth are placed in RCCs by Wisconsin county agen cies that are responsible for mental health
services. All yo uth placed in RCCs for mental health treatment are severely emotionally di sturbed and
because of their diagnoses require inten sive therapeutic treatment, including psychotherapy as well as
the design and implementation of a behav ior management plan administered throughout the day by
youth care workers and social workers, as well as other staff.

W isconsin counties are required to provide needed mental health services in the least restrictive, most
integrated setting consistent with the needs of the individual. For this reason, the vast maj ority of
youth who need mental health services receive them in the community, not in a residential setting like
an RCC. Only those youth who do not need inpatient hospitalization but have mental health needs that
are so substantial they cannot be treated while the youth Jives at home may be placed in an RCC for
mental h ealth treatment. In addition, under the least restrictive/most integrated setting mandate, a
youth's length of stay in an RCC is limjted to the period ofti me the youth requires treatment in a
residential, non-home-based setting.

RCCs do not meet the federal definitions of hospital, nursing home, IMD or Psychiatric Residential
Treatment Facility. Therefore, Medicaid FFP js not available for room and board costs in RCCs.
However, the mental health treatment services provided in RCCs fall within the " rehabilitative
services" benefit category under Social Security Act§ l 905(a)(13), and so payments for those services
are eligible fo r Medicaid FFP.

The federal EPSDT law requires each State Medicaid program to provide periodic physical and mental
examinations for all Medi caid enrollees under 2 1 years of age, and to provide Medicaid coverage for
any service coverable under federal Medicaid Jaw that is fo und to be necessary by such an exam,
irrespective of whether the needed service is covered under the State's State Medicaid Plan. This is the
so-called EPSDT "Other Services" requirement.

U nder the Wisconsin "community aids" funding mechanism described above, Wisconsin counties are
protected by the so-called county "shield Jaw." This is a Wisconsin statute that limits each county's
liab ility for providing county funds fo r community mental health services to the county' s match that is
required to secure its state community aids allocation. Most counties spend at least some additional
county funds on mental health and other community aids-coverab le services (so-called " overmatch"
spending), but a county is not obligated to do so. The result of the "shield Jaw" is that, at least for non­
Medicaid eligible individuals, it is possible that some individuals with a need for mental health
                             STATE AGENCY COMMENTS 

                                                                                                     APPENDIXB
                                                                                                      Page 3 of 16




services will not receive state and/or county funding for all the services they need, and for such
individuals the availabi lity of services may not be equal among Wisconsin's 72 counties.

In the early 2000's, Wisconsin recognized that its county "shield law" could cause Wisconsin to be in
noncompliance with the EPSDT "Other Services" requirement as it applies to federally Medicaid­
coverable mental health rehabilitative services provided in RCCs. Noncompliance could result from a
county availing itself of the "shield law" to deny funding for RCC mental health services for a
Medicaid-eligible individual, on grounds the county had met its " match" obligation and thus had no
further financial obligation to provide funding for such services.

For this reason, Wisconsin Medicaid began covering RCC mental health services as EPSDT " Other
Services," and claiming FFP for the Medi caid payments made for those services. No Medicaid
payments were made for RCC residents with non-mental health diagnoses (e.g. those w ith intellectual
disabilities), or for services for RCC residents with mental health di agnoses other than mental health
treatment (e.g., education, securi ty, room and board). Prior to this initiative, for many years Wisconsin
paid for these RCC mental health treatment services primarily with state and county funds, despite the
fact expenditures for such services were eligible for Medicaid FFP under the EPSDT "Other Services"
mandate.

Wisconsin did not amend its State Medicaid Plan to provide Medicaid coverage for mental h ealth
treatment services in RCCs, because it opted to provide coverage onl y when required by EPSDT
"Other Services." If Wisconsin had amended its State Medicaid Plan to cover RCC mental health
services, it would have been required to cover such services for all Medicaid-eligible youth, regardless
whether an EPSDT exam indicated a need for the services. Instead, covering such services as EPSDT
"Other Services" means that mental health treatment services provided in RCCs are covered by
Wisconsin Medicaid only in those instances where the services are provided pursuant to a physician's
order based on an EPSDT exam, assuming all other coverage criteria are met (i. e., the child is
Medicaid elig ible, the services are reimbursable as re habilitative services under Social Security Act
§ 1905(a)( l 3), and the services are provided by qualified treatme nt staff, including youth care workers
and social workers, w ho participate in developing the treatment plan and are responsible for carrying
out the treatment methods specified in the plan).

The Wisconsin State Medicaid Plan establishes specific reimbursement methodologies for certain
mental health services covered only under the EPSDT "Other Services" benefit, including in-home
psychotherapy and specialized psycho logical evaluation. However, the Plan does not expressly
identify a reimbursement methodology for any other services covered only under the EPSDT "Other
Services" mandate, including mental health treatment services provided in RCCs. For this reason,
Wisconsin Medi caid established reimbursement rates for RCC services in accordance with the general
"Methods and Standards for Establishing Payment Rates for Non-Institutional Care" set forth in the
Wisconsin State Medicaid Plan at Attachment 4.19B, section F. That section of the State Plan
provides that WlDHS "will establish maximum allowable fees for the covered services listed below,"
and that "for each covered service, the Department shall pay the lesser of a provider's usual and
customary charge or the maximum fee established by the Department." Following this introductory
statement is a list of28 service categories, including "Early and Periodic Screening, Diagnosis and
Treatment (EP SDT)."
                            STATE AGENCY COMMENTS 

                                                                                                APPENDIXB
                                                                                                 Page 4 of16




Wisconsin Medicaid established facility-specific maximum fees for RCC mental health treatment
services provided as EPSDT "Other Services," consisting oftwo components: the Base Rate and the
Support Rate. The Draft recommends disallowance of most of Wisconsin's FFP claim for both
components of this rate, and Wisconsin does not concur with the Draft in either respect.


The Draft Fails to Establish that Wisconsin's Claim for FFP in Medicaid Pavments fo r the RCC
Base Rate Violated Applicable Federal Requirements

The Draft concludes in part that the vast majority of RCC "Base Rate costs claimed by the State
agency on its CMS 64 was unallowable." Draft at page 4. WIDHS disputes this conclusion.

The Base Rate component of the RCC mental health treatment reimbursement rate takes into account
the salary costs of treatment personnel, including among others youth care workers and social workers,
of each RCC. No other county expenditures associated with operation of the RCC (e.g., room and
board, overhead, non-treatment-related salary costs) were included in determining the Base Rate
portion of the reimbursement rate. Wisconsin Medicaid establ ished the Base Rate portion ofthe RCC
mental health treatment reimbursement rate as a per diem rate rather than hourly (or other unit-based)
rate because the mental health treatment services provided in RCCs are on-going throughout each day
rather than limited to group or individual counseling sessions. Youth care workers and social workers
are responsible for carrying out the treatment plan developed for each resident by mental health
professionals through all oftheir daily contacts with the residents.

The Base Rate component of the RCC mental health treatment reimbursement rate was determined
based on an estimate ofthe percentage of the full daily RCC billing rate paid by counties that was paid
for mental health treatment services. That percentage was derived from an estimate ofthe portion of
time youth care workers and social workers devoted to mental health treatment rather than other
activities. For youth care workers, 80% of work time was estimated as devoted to treatment and 20%
to maintenance; fo r social workers, 75% ofwork time was estimated as devoted to treatment and 25%
to maintenance. A full explanation ofthe method WIDHS used to develop the Base Rate is provided
in the Attachment, "Wisconsin Department of Health and Family Services 2007 Medicaid Billing Rate
Methodology, HealthCheck - Other Services Initiative for Residential Care Centers" (" Rate
Methodology").

During the audit, OIG questioned the basis for these percentages, and WIDHS provided the following
explanation in writing:

       Rational[e] for Splitting youth care worker salaries 80% treatment/20% maintenance.

       ***
       Data was . .. gathered through interviews with staff at residential care centers in Wisconsin
       regarding the funct ions performed by youth care workers. The RCCs involved in the
       discussions included:

               Norris 

               Clinicare Milwaukee 

               Clinicare Eau Claire 

               Clinicare Wyalusing 

                              STATE AGENCY COMMENTS 

                                                                                                    APPENDIXB
                                                                                                     Page 5 of 16




                Homme Home 

                Lad Lake 

                Northwest Passage 


        Based on these discussions, review ofjob descriptions and review of services included in
        individual plans ofcare, it was determined that youth care workers spe nd their time providing
        life skills training and behavior modification services to youth during their waking hours.
        During non-waking hour s these staff are providing daily supervision which would be
        considered part of the maintenance cost of the client. Based on staffing differentials between
        shifts (fewer staffduring non-waking hours) it was determined that 80% ofyouth care worker
        time was devoted to treatment and 20% to maintenance.

        ***
        Rational[e] for Splitting social worker salaries 75% treatment/ 25% maintenance.

        . . . [I]nterviews held with social worker staff in residential care centers determined that 75% of
        the social worker time is spent providing treatment services versus type maintenance services.
        The social workers involved in the discussions were from the following RCCs:

               Norris 

               Clinicare Milwaukee 

               Clinicare Eau Claire 

               Clinicare Wyalusing 

               Homme Home 

               Lad Lake 

               North west Passage 


       Tn addition to the interv iews, . .. staff reviewed job descriptions and services inc luded in
       individual plans ofcare to support the allocation of 75% providing treatme nt services and 25%
       providing maintenance type services.

The WIDHS response to OIG on this issue went on to observe that these percentages are consistent
w ith time study results in similar residential facilities in Texas, and that a number of other states regard
100% of youth care worker time as Medicaid-re imbursable, based on the fact that overnight staff are
on-call to provide services consistent with each resident' s treatment plan in emergency situations.

At the time WIDHS developed the RCC B ase Rate, Wisconsin Medicaid consulted with the Division
of Children and Family Services (DCFS), Wisconsin' s child welfare authority. The DCFS (and its
successor agency Wisconsin Department of Childre n and Families) regulates RCCs and oversees
counties in placement of youth in R CCs. As Wisconsin Medicaid developed the RCC Base Rate
DCFS supported the view that it would be reasonable to have counted 100% of social worker and
youth care worker time as treatment time for purposes ofMedicaid reimbursement. In this regard,
DCFS emphasized that for an individual youth to qualify for admission to an RCC for mental health
treatment, the indi vidua l must have a serious emotional disturbance. For such individuals, alm ost all
of their day is dedicated to treatment, even during school attendance, which a long with sleep time is
not counted in the methodology WIDHS employed to develop the RCC Medicaid reimbursement rate.
                            STATE AGENCY COMMENTS 

                                                                                                 APPENDIXB
                                                                                                  Page 6 of 16




The Draft concludes that the vast majority of W isconsin's claim for FFP based on the RCC Base Rate
was unallowable for two reasons.

First, the Draft recommends di sallowance of FFP for the RCC Base Rate because " [t]he State agency
calculated the base rate p ortion of RCC service costs using a cost a llocation methodology that did not
comply with Federal requirements." Draft at page 4. As support for this position, OIG contends that
" lhe State agency's support for these estimates did not comply with OMB Circular A-87 cost
pri nciples for documenting and allocating costs or with Medicaid requirements that payment rates and
expenditures must be adequately documented." Draft at page 5.

This conclusion is unfounded beca use OMB Circular A-87 simply does not apply to a State's
establishment of payment rates for Medicaid covered services. Federal cost allocation requirements do
not apply to determining the percentage of RCC salary cost!:> to include in the per di em RCC Medicaid
payment rate.

Each State Medicaid agency is required to have an approved cost allocation plan for identifying,
measuring and a llocating a ll State agency costs incurred in support of administering Medicaid .
However, excluded from this requirement are all " expenditures for ... medica l vendor payments .. . and
payments for services and goods provided directly to program recipients . ..." See 42 CFR §433.34
and 45 CFR §95 .505. Federal cost allocation requirements apply to state Medicaid adm inistration
costs, not to the development of Medi caid payment rates for Medica id-covered services.

OMB Circular A-87 "establishes principles and standards for determining costs for Federal awards
carried out through grants, cost re imbursement contracts, and other agreements w ith State and local
governments . .. ." 2 CFR § 225.5. It "establishes principles for determi ning the allowable costs
incurred by . . . governmental units . ..." 2 CFR § 225 , Appendix A, § A I. The p rinciples enunciated
in OMB Circular A-87 arc to be "applied by all Federal agencies in dete rmi ning costs incurred by
governmental units under Federal awards ... ." 2 CFR § 225, Appendi x A,§ A.3.a. OMB Circular A­
87 thus applies to detexm ining allowable costs inc urred by Sta te Medicaid agencies in administering
Medicaid. However, it does not apply in determining whether re imbursement rates established by
State Medicaid agencies for covered Medicaid services comply with federal requirements govern ing
the methodologies states may use in establishing such rates.

The inappl icability ofOMB Circular A-87 to the development ofMedicaid service reimbursement
rates is well supported in decisional precedent established by the U.S. Department of Health and
Human Services' Departmental Appeals Board (DAB).

In Missouri Department o_(Social Services (DA B No. 630, March 18, 1985, Docket No. 84-159),
HCF A had taken a disallowance on the basis that the cost allocation plan (CAP) allocating central
services costs to certain institutions had not been approved by the Division of Cost Allocation. HCFA
based its position primarily on OMB Circular A-87, arguing that the State was precluded from using
central services costs in its per diem Medicaid rate calculations if it did not follow the Circular. On
appeal, DAB concluded " that the OMB A-87 cost principles simply do not apply in determining what
costs can be used to calculate a Medicaid reimbursement rate." Unde r these circumstances, "the State
is charging payment of the rate as a direct cost of Medicaid. Neither OMB A-87 nor Med icaid
regulations requires a state to fo llow CAP procedures for a governmental component which is
providing services to program recipients, but not itself claiming indirect costs under a federal
program."
                             STATE AGENCY COMMENTS 

                                                                                                  APPENDIXB
                                                                                                   Page 7 of 16




In the Missour i case, the State argued that " the costs claimed (rates) were medical vendor payments
and were exempt from cost allocation requirements specific to Medicaid." DAB agreed, noting that
        ... [w)hen a private provider is reimbursed for services provided unde r Medicaid, there is no
        question that the state Medicaid agency's cost in which it claims FFP is the payment made
        based on the per diem rate calculated for that provider.... The difficulty is that OMB A-87 and
        other CAP provisions simply do not address provider reimbursement and the Medicaid
        regulations do not require approval of cost allocation methods used by a provider agency.

DAB concluded that "the costs charged to federal funds here are the provider payments, in the amount
determined by the per diem rates, not the costs used in calculating the rates."

The DAB reached the same result in iowa Dept. ofHuman Services (DAB No. 624, February 12, 1985,
Docket No. 84-46), holding that "OMB A-87 cost principles simply do not apply in determining what
costs can be used to calculate a Medicaid reimbursement rate." In Iowa, the DAB observed that " [t)he
underlying costs used to calculate the [Medicaid reimbursementJ rate are incurred by the private
provider, not by the state, and Medicaid reimbursement principles apply to those costs, not OMB A­
87."

In New York Stale Department ofSocial Services (DAB No. 1394 ( 1993), March 5, 1993, Docket N o.
A-92-35), the di sallowance arose from a review ofper diem rates charged for ICF/MRs by New York
State. New York argued that OMB Circular A-87 " is inapplicable to this case because prior Board
decisions have held that reimbursement rates are determined by methods and cost principles in each
state plan rather than by the principles ofOMB Circular A-87." DAB agreed tha t "OMB Circular A­
87 does not apply directly to the calculation of reimbursement rates ...."

Finally, in North Carolina Dept. ofHuman Resources (DAB No. 11 33, February 13, 1990 Docket No.
89-162), the DAB again concluded that OMB Circular A-87 "does not apply in determining what costs
can properly be used in calculating reimbursement rates for Medicaid facilities." Attempting to apply
OMB Circular A-87 to reimbursement rates "confus[es) the question of what costs may be included in
calculating a Medicaid reimbursement rate with the issue of what costs may be claimed under a
Medicaid grant." DAB distinguished between reimbursement methodologies under which States
" make payments to . . . public facilitie s based on the applicable Medicaid rates," and those under which
States "simply paid the operating costs of the facilities," and concluded that OMB Circular A-87
applies only in the latter context.

Therefore, based on the plain language of applicable federal regulations and clear and consistent
precedent established by the DAB decisions referenced above, OIG's reliance on OMB Circular A-87
in its review of Wisconsin's RCC Medicaid per diem reimbursement rate is misplaced. Wisconsin's
inclusion of a percentage ofRCC youth care worker and social worker sala ries for purpose of
calculating the RCC Base Rate is not subject to cost allocation principles enunciated in OMB Circular
A-87.

Second, OIG contends that most ofthe RCC " base rate costs" claimed by Wisconsin were
"unallowable" because "the State agency's support for these estimates did not comply .. . with
Medi caid requirements that payment rates and expenditures must be adequately documented." Draft at
page 5. See also OIG's statement in the Executive Summary at page i that "[t)he State agency's
allocation methodology used estimates that it could not adequately support."
                                 STATE AGENCY COMMENTS 

                                                                                                      APPENDIXB
                                                                                                       Page 8 of 16




  The only purported legal foundation cited in the Draft for the proposition that "payment rates" must be
  " documented" and "supported" appears to be a mischaracterization of the requirements ofa federal
  regulation, 42 CFR § 447.203. The Draft erroneously paraphrases tills regulation as "requir[ing] the
  State to maintain documentation for payment rates and make it available to I-lliS on request." Draft at
  page 4 [emphasis added]. ln fact, 42 CFR § 447.203(a) merely provides that " [t]he agency must
  maintain documentation ofpayment rates and make it available to HHS upon request." [Emphasis
  added.] In the context ofthe recommended disallowance in this case, the significance of the difference
  between the words " for" and " of' cannot be overstated. While it is beyond di spute that a State must
  maintain documentation of its "actual expenditures" for Medicaid-covered services, see Form CMS­
  64, that req uirement in no way implies a State must document that its expenditure for any particular
  service does not exceed the cost the provider incurred in rendering the service.

  OIG would have it that 42 CFR §447.203 requires States to maintain documentation establishing that
  Medicaid payment rates for a particular service do not exceed a reasonable estimate of the cost of
  providing that service, whi le in fact all the regulation requires is that States maintain documentation of
  what those payment rates are. Wisconsin clearly meets the requirement of 42 CFR §447.203 that it
  " maintain documentation ofpayment rates and make it available to HI-IS upon request."

    None of the foregoing discussion is meant to suggest that there are no applicable upper limits to
    Medicaid payment rates. Each State's Medicaid Plan must"... provide such methods and procedures
    relating to ... the payment for, care and services ... as may be necessary ... to assure that payments are
    consistent with efficiency, economy, and quality of care ...." Social Security Act§ 1902(a)(3 0)(A).
    F urthermore, there are specific upper limit tests that are applicable to Medicaid payment rates for
, 	 specific categories of services. Outpatient hosp ital and clinic service payment rates are subject to
    aggregate upper limits based on Medicare reimbursement principles. 42 CFR §447.32 1. For "[o] ther
    inpatient and outpatient facility services," federal regulations provide that " [t]he agency may pay the
    customary charges of the provider but must not pay more than the prevailing charges in the locality for
    comparable services under comparable circumstances." 42 CFR §447.325. However, OIG fai ls to
    suggest which if any ofthese or other upper limit tests applies to Wisconsin's RCC Base Rates, much
    less analyze whether the RCC Base Rates set by Wisconsin meet the applicable test.

  Underlying OlG's contention that WIDHS must provide documentation/or the Base Rate component
  of its RCC Medicaid per di em payment rate seems to be an assumption that the Medicaid payment rate
  cannot exceed what the county pays for the portion of the services rendered in an RCC that is Medicaid
  reimbursable. That assumption is directly contrary to the Congressional directive that US DHHS not
  limit Medicaid payments to public providers to the cost ofproviding the service in question. American
  Recovery and Reinvestment Act of2009, P.L. 111-5 , § 5003(d)(J ). In response to that directive, US
  DHHS issued final regulations (75 F ederal Register 73972) removing earlier proposed (72 Federal
  Register 2236) and final (72 Federal Register 29748) regulations which would have limited Medicaid
  reimbursement for services rendered by providers operated by units of government to the "individual
  provider's cost of providing covered Medicaid services."

  The government services rule further would have authorized the Secretary of HHS to determine
  " reasonable methods of identifying and allocating costs to Medicaid," and have required that "[flor
  non-hospital and non-nursing faci lity services, Medicaid costs must be supported by auditable
  documentation in a form approved by the Secretary. " See proposed 42 CFR §447.206(c)(l), (2) and
  (4), at 72 FR 2246. Given the fact that RCC services for which Wisconsin is claiming FFP are
  provided through and funded by county agencies, OTG's assertion that WIDHS must document the cost
                             STATE AGENCY COMMENTS 

                                                                                                 APPENDIXB
                                                                                                  Page 9 of 16




ofproviding those services as a condition ofrecei ving FFP flies in the face of the Congressional
directive that HHS is not to limit reimbursement of governmentally-provided services to cost.

The now-repealed government services rule also imposed restrictions on Medicaid reimbursement in
situations where, as in the case of Wisconsin's reimbursement of RCC services, the non-federal share
ofMedicaid reimbursement was to be funded through certified public expenditures (CPE). See
proposed 42 CFR §447.206(d), at 72 FR 2246-7. Among other things, the ru le would have required
providers to submit an annual report to the State Medicaid agency reflecting the individual provider's
cost of serving Medicaid patients, and would have required States to reconcile their Medicaid
payments to those cost reports. As noted above, CMS subsequentl y withdrew this rule under
Congressional directive. Nevertheless, the premise underlying OIG 's recommended disallowance is in
line with the withdrawn rule: i.e., that where a State uses CPE as the non-federal share of Medicaid
expenditures, the State must maintai n documentation of the provider's actual cost ofproviding the
service in question.

For the reasons set forth above, the Draft fails to establish that Wisconsin's claim for FFP in Medicaid
payments for the RCC Base Rate violated applicable Federal requirements


The Draft Fails to Establish that Wisconsin's Claim for FFP in Medicaid Pavments for the R CC
Support Rate Violated Applicable Federal Requirements

The OIG Draft Audit Report conclude~ in part that the vast majority ofRCC "administrative rate costs
claimed by the State agency on its CMS 64 as 'other practitioner services' was unallowable." Draft at
6. WIDHS disputes this conclusion.

The portion ofthe RCC Medicaid payment rate the Draft identifies as "administrative rate costs" in
fact represents the Support Rate component of the RCC service payment rate. The Support Rate
component of the RCC rate takes into account overhead costs RCCs incur in connection with the
"provision of a therapeutic milieu and the implementation ofan individualized treatment plan." See
Attachment, " Wisconsin Department of Health and Family Services 2007 Medicaid Billing Rate
Methodology, HealthCheck - Other Services Initiative for Residential Care Centers," at page 3. As
made clear in Wisconsin's Reimbursement Methodology, " (t]hese support costs are not 'administrative
costs' as defined by Medicaid rather, they are Medicaid EPSDT implementation costs." Jd.

The Support Rate component ofWisconsin 's Medicaid payment rate for RCC mental health treatment
services is part of the provider reimbursement rate for provision of the services. The Draft's reference
to the Support Rate as "admini strative costs" is a mi scharacterization.

The Draft otTers two different bases for its conclusion that the FFP claimed for Medicaid payments for
the RCC Support Rate component is unallowable. Both are unfounded.

First, OIG questions whether "these separate administrative costs are allowable under CMS 's claimLng
policy as set forth in its December 20, 1994, State Medicaid Director Letter (Subject: allowable
administrative costs)" (SMDL). The SMDL is wholly irrelevant to Wisconsin's claim ofFFP for the
Support Rate component of Medicaid payments for RCC mental health treatme nt services.
                             STATE AGENCY COMMENTS 

                                                                                                  APPENDIXB
                                                                                                   Page 10 of 16




For the most part, the SMDL merely distinguishes between costs eligible for FFP as Case Management
(CM) service costs versus Administrative Case Management (ACM) administrative costs. None of
that discussion ha s any relevance to the Support Rate component of Wisconsin's RCC Medicaid
paym ent rate. The RCC Medicaid payment rate is for the provision ofMedicaid-covered mental health
treatment services under the rehabilitative services benefit category; it is neither CM nor ACM.
Case management services are "services furnished to assist individuals, eligible under the State plan
who reside in a community setting or are transition ing to a community setting, in gaining access to
needed medical, social, educational, and other services ...." 42 CFR §440.169(a). The RCC mental
health trea tment services for which Wisconsin claims FFP are " rehabilitative services," not case
management services. "Rehabilitative services ... include[] any medical or remedial services
recommended by a physician or other licensed practitioner of the healing arts, within the scope of his
practice under State law, for maximum reduction of physical or mental disability and restoration of a
beneficiary to his best possible functional level. 42 CFR §440.130(d); see also Social Security Act
§ 1905(a)(13). "Case management does not include ... ser vices . .. when the ... activities constitute the
direct delivery of underlying mectical, educational, social, or other services to which an eligible
indiv idual has been referred .. . ." 42 CFR §441.18(c). The mental health treatment services offered in
Wisconsin RCCs are by definition not CM services, beca use they "constitute the direct delivery of
underlying medical ... services."

Nor docs Wisconsin 's FFP claim for the Support Rate componen t of its RCC Medicaid reimbursement
rate represent a claim for ACM. ACM includes certain case management activities undertaken by or
on behalfofthe State Medicaid agency, including Medicaid eligibi lity determinations and
redete rminations, Medicaid intake processing, Medicaid preadmission screening for inpatient care,
prior authorization for Medicaid services, utilization rev iew, and outreach activities to inform or
persuade beneficiaries or potential bene ficiaries to enter into care through the Medicaid system.
SMDL at page 3; see also State Medicaid Manual, §4302. The RCC provider activities included in the
Support Rate are not ACM. Rather, they are activities undertaken by the RCC that directly relate to
the provision of mental health treatment services in the RCC and claiming Medicaid reimburseme nt for
those services; i.e., they represent provider overhead incurred solely in connection with providing
Medicaid-covered services and billing Medicaid for reimbursement for those services.

Aside from distingui shing between CM and ACM activ ities, the SMDL goes on to reiterate the basic
and longstanding principles that govern the determination of what costs are properly regarded as
administrative costs in States' claims for FFP at the applicable administrative rate. In this regard, the
SMDL sets forth the familiar tenet that administrative costs must be " found necessary by the Secretary
for the proper and efficient administration ofthe State plan." SMDL at page 4; see a lso Social
Security Act, § 1903(a)(7).

The SMDL then lays out several principles that "reflect determinations made by IICF A in appl ying
this policy." SMDL at pages 4-6. Among these principles is the ad monition that an allowable
administrative cost " may not include the overhead costs of operating a provider facil ity." SMDL at
page 5. Though the Draft does not directly cite this passage of the SMDL, the substance of the
analysis suggests the passage might have been at least part of the reason the Draft cited the SMDL at
all. The crucial point here, h owever, is that while the Support Rate component of Wisconsin's RCC
Medicaid reimbursement rate docs in fact take into account overhead costs incurred by an RCC in
participating in the RCC Medicaid benefit, FFP for the Support Rate component is claimed by
Wisconsin as part of"the total amount expended ... as medical assistance" (i.e. as a service cost) under
Social Security Act, § 1903(a)( l ), not as a cost of Medicaid ad ministration.
                              STATE AGENCY COMMENTS 

                                                                                                    APPENDIXB
                                                                                                     Page 11 of 16




Second, in addition to citing the SMDL, the Draft bases its recommendation that FFP for the RCC
Support Rate be disallowed on the argument that " [b]ecause Medicaid providers have agreed to accept
service payment as payment in full, such providers may not claim an additional cost as an
administrative cost under the State plan." Draft at pages 4 and 6. This position is unsupportable, for
two reasons.

Initially, as established above, the RCC Support Rate is not "claimed as an administrative cost under
the State plan." It is claimed as a component of the reimbursement rate for provision ofRCC mental
health treatment services.

Moreover, to the extent the Draft intends to suggest that the "payment in full'' principle prohibits a
State from claiming FFP for overhead costs incurred by a provider in connection with Medicaid­
covered services at all (i.e., either as a Medi caid administrative or service expenditure), there is simply
no foundation in law for such an assertion. The " payment in full" requirement provides that the State
Medicaid agency " must limit participation in the Medicaid program to providers who accept, as
payment in full , the an1ounts paid by the agency ...." 42 CFR §447. 15. This rule prohibits Medicaid
providers from seeking reimbursement, in addition to Medicaid payments, for Medicaid services. It
does not preclude a State Med icaid agency from taking into account a provider's overhead costs in
setting Medicaid payment rates. As noted in the preceding section of these comments, federal laws
governing the amounts States may pay for Medicaid services provide that Medicaid payments must be
"consistent with efficiency, economy, and qual ity of care." Social Security Act § 1902(a)(30)(A). As
also noted above, the re are more specific requirements that apply these general principles to pa rticular
classes ofservices, such as inpatient and outpatient hospital services, clinic services, and " [o]ther
inpatient and outpatient faci lity services," see 42 CFR §§ 447.32 1 and 447.325. However, none of
these provisions prohibits a State, in setting the Medicaid payment rates for a Medicaid-covered
service, from taking into account overhead costs a provider incurs in rendering the service and seeking
Medicaid reimbursement for it. The Draft cites no authority for such a p roposition, and none ex ists.

For the reasons set forth above, the Draft fails to establish that Wisconsin's claim for FFP in Medicaid
payments for the RCC Support Rate violated applica ble Federal requirements


Conclusion

For the reasons set forth above, WIDHS does not conc ur with the Draft's recommendation that
Wisconsin refund the vast majority ofFFP it claimed for RCC Medicaid payments made during the
audit period. The Draft has failed to establish any grounds for concluding that any part of Wisconsin's
claim for FFP in Medicaid expenditw-es for mental health treatment services provided in RCCs should
be disallowed. The authorities cited by OlG in support of its recommendation are inapplicable to the
Medicaid payment rate set by Wisconsin for RCC services.

OIG's analysis belies a fundamental misunderstanding of Wisconsin's RCC Medicaid payment
methodology. First, OIG perceives that the methodology it is based on cost reimbursement rather than
a maximum fee. Second, OIG views the Support Rate component ofthe RCC rate as Medicaid cost of
administration rathe r than services.

OIG failed to analyze the appropriateness of Wisconsin's RCC Medica id payment methodology under
applicable principles of federal law relating to efficiency, economy, quality and access to services.
Wisconsin's RCC service reimbursement methodology yields a reasonab le payment rate that is
                            STATE AGENCY COMMENTS 

                                                                                               APPENDIXB
                                                                                                Page 12 of 16




consistent with efficiency and economy and sufficient to enlist enough providers to guarantee access to
care. Each youth who receives mental health services in RCCs has severe emotional disturbance that
requires consistent application ofa behavior treatment plan throughout the day and night by youth care
workers and social workers who participate in the development of the plan and are trained in its
implementation. Including a substantial portion of their salaries in the RCC Medicaid reimbursement
rate is not unreasonable.

Thank you for the opportunity to comment.

Sincerely,


/n1J.v~
Kitty Rhoades
Secretary


Attachment
                         STATE AGENCY COMMENTS 

                                                                                                       APPENDIXB 

                                                                                                        Page 13 of16 





                W isconsin Department of Health and Family Services 

                      2007 Medicaid Billing Rate Methodology 

         lfealthCheck - Other Services Initiative for Residential Care Center s 



During the HealthCheck/ Other Services Initiative for Residential Care Centers (RCC), we
calculated the Medicaid billing rates for participating RCC s. The Medicaid bill ing rate is
comprised of two components, the HealthCheck base rate and the HealthCheck Support Costs.
The base rate is the portion of the faci lity's published dai ly rate for Medicaid covered treatment
services. The Support Costs are additional costs d irectly re lated to the provision o f a therapeutic
milieu and the implementation of an individualized treatment p lan. These support costs are not
"admin istrative costs" as defined by Medicaid rather, they are Medicaid EPSDT implementation
costs.

To calculate the Medicaid Billing rate for participating RCCs, the most recent financial
info rmation available to the State for each faci lity was utilized. To calculate the 2007 rates,
fi nanc ial informat ion from 2005 was used. In most cases the data was located with in the
faci lity's (or agency's) 2005 annual independent aud it re port. In several cases th e facility (or
agency) was contacted directly for necessary information.

T he procedures below were followed to calculate 2007 Medicaid Billing rates.

HealthCheck Base Rate
Using the 2005 financial information, the 2005 Medicaid percentage of total costs was calculated.
This percentage was then applied to the 2007 published rate to calculate the 2007 H ea lthC heck
Base rate. The Res idential Rate Setting spreadsheet was used to calculate the percentage.

To calculate the 2005 Medicaid percentage each facility's 2005 expenses were data entered into a
Resid ential Rate Setting spreadsheet. The Residential Rate Setting s preadsheet is separated into
four columns:
                 I.   Support
                 2.   Maintenance (TV-E)
                 3.   Treatment (Title Xtx)
                 4.   Education
                 5.   Unallowable

The rows of the Residential Rate Setting spreadsheet are:
                 I. Salaries
                        a. Management
                        b. Plant/Maintenance
                        c. Medical
                        d. C lothes and Personal Staff
                        e. Dietary
                        f. Title XIX
                        g. Educatio n
                        h. Recreation
                        i. Youth Care
                        j. Socia l Workers




                                                  I of 4
                               STATE AGENCY COMMENTS 

                                                                                                     APPENDIXB 

                                                                                                      Page 14 of 16




                     2. 	 Operating Expe nses
                     3. 	 Plant/Maintenance
                     4. 	 Food
                     5. 	 Clothing
                     6. 	 Travel and Transportation
                     7. 	 Contract Socia l Services
                     8. 	 Foster Care
                     9. 	 Oth er

Each expense listed in the audit report was data entered into the spreadsheet by cross matching a
column category with a row category. For example, an expense fo r medica l supplies woul d be
data entered under the Treatment column and the Operating Expenses row.

Many of the annual independent audit reports did not prov ide the expense detail needed to
accurately allocate the salary, payroll tax and employee benefit expenses. To ensure the
determination of the breakout is as accurate as possible, a request was sent to each participating
faci lity reque sting a breakout of these expenses into the 10 salary categories listed in the
Residential Rate Setting sheet.

Additj_o.nalll<ll~_s_f9_LJ.he_.lie.§.lilenti al   Rate settin g spreadsheet:

     • 	 The youth care worker salaries were allocated 80% to treatment and 20% to ma intenance.
         Simil arly, the social worker salaries were allocated 75% to treatment and 25% to
         maintenance.
     • 	 Costs ente red into the Residential Rate Setting spreadsheet excluded the additional cost
         incurred by the faci lity to impl ement the I-IealthCheck/Other Services init iative.
     • 	 The Medicaid percentage was ca lculated by dividing the Treatment total by the total of
         all costs minus administrative cost.
     • 	 The fV-E pe rcentage was calculated by dividing the Maintenance (IV-E) total by the total
         of all costs minus administrative cost.

After enteri ng all costs into the Residentia l Rate Setting spreadsheet, (excluding those cost
incurred by the facility to implement the HealthCheck/Other Services initiative), the 2005
calculated Medicaid percentage for each faci lity was data entered into the 2007 Medicaid Billing
Rate spreadsheet.

The 2007 Medicaid Billing Rate spreadsheet column labe led "2007 HealthCheck Base Rate" is a
calculatio n column. The result displayed in this column is the 2007 Published rate multiplied by
the 2005 Medicaid percentage.

Support Costs
To calculate the 2007 Support Costs, 2005 information fo r each facili ty was data entered into the
2007 Medica id Billing Rate spreadsheet. The columns used in this spreadsheet to calculate the
2007 S upport Costs are described below:

     £_0_Q_li-JealthChec k Expe_m;es: Each facility provided a schedule of 2005 HealthCheck
     expense s that exc luded a ll costs excepL those incurred by the facility to implement the
     initiative. These costs were data entered into this column. These costs directly relate to the
     provis ion ofa therape utic milieu and the implementati on ofa n indi vidua lized treatment plan.




                                                            2 of4
                       STATE AGENCY COMMENTS 

                                                                                                   APPENDIXB
                                                                                                    Page 15 of 16




    Paid Cla ims for 2005 Dates of Service (DOS): T he number of paid claim s for t he facili ty for
    2005 (DOS) were entered into this column.

    2007 Suoo ort Costs: This is a calc ulation column. This is the 2005 HealthCheck Ex penses
    divided by the number of paid c la ims for 2005 DOS. If there were no 2005 HealthCheck
    Expenses to ca lculate the Support Costs the 2007 Publ ished Rate was m ultiplied by 8%.

2007 Medicaid Billing Rate
In the 2007 Medicaid Billing Rate spreadsheet, the column headed "2007 HC Med ica id Billing
Rate" calculated the 2007 Billing rate by adding the 200 7 HealthCheck Base Rate and the 2007
Support Costs. The 2007 Medicaid Billing rate is the per diem amount to be billed to Medicaid
fo r 2007 dates of service.

The columns of the 2007 Medica id Billing Rate spreadsheet are:

    Faci litv/Program: RCC Name.

    Medicaid Pr.gvider NumbJ)r; Med icaid assigned provider lD.

    Modifier: Modifi er assigned to the facility/ program.

    FY 2007 Published Rate: Pe r die m rate the faci lity is charging the county (as provided by
    Thomas Smith at DHFS).

    2005 Medicaid Percenta~ Medicaid percentage calculated using the Residential Rate
    Setting spreadsheet.

   £_007 Ii~a lthCheck Bl!§_e Rate: 2007 Published Rate mu ltiplied by the 2005 Medicaid
   Percentage.

    2005 HealthCheck Expenses: Total 2005 cost of implementin g 1-IealthCheck/Other Services
    Initiative as reported by the faci lity.

    Paid Claims for 2005 DOS: Tota l number of paid claims for 2005 dates ofservice (as of
    remittance dated 12/31/2006).

   200 7 Su pport Costs: 2005 HealthCheck Expenses divided by P aid C la ims for 2005 DOS. If
   there we re no 2005 HealthCheck expenses we multiplied the 2007 Published rate by 8% .
   These support costs are additional costs directly re lated to the prov is ion ofa thera peutic
   milieu and the implementation of an individua lized treatment plan. These support costs are
   not "administrative costs" as defined by Medicaid rather, they are Medicaid EPSDT
   implementati on costs.

    2007 HC Medicaid Billing Rate: 2007 HealthCheck Base Rate plu s 2007 Support Costs




                                                3 of 4
                       STATE AGENCY COMMENTS 

                                                                                                    APPENDIXB
                                                                                                     Page 16 of 16




Additional notes for the 2007 Medicaid Billing Rate Spreadsheet:
     • 	 Facilities with multiple programs (Eau C la ire Academy, ODTC, NWP, St. Aemel ian &
         Wyalusing Academy), did not provide HealthCheck expense information broken out by
         program. For these faci lities, 2005 HealthChcck expenses and paid claims for a ll
         programs were combined for calcu lation of the 2007 Support costs.
     • 	 The number of2005 paid claims is the number of claims paid for 2005 dates of service as
         ofclaim remittances dated I 2/3 1/2006.
     • 	 2007 support costs for Benet Lake, St. Charles and Youth Treatment Center of
         Washington County were set at 8% of the facility's 2007 publis hed rate. These facilit ies
         were not participating at the start ofthe 1-JealthCheck/Other Services Initiative. The
         support costs for these facilities w ill continue to be set at 8% of the published rate until
         they have had a fu ll year of participation in which to establish actual costs and the
         reporting of those costs becomes availab le. This is consistent with the method used to
         calculate support costs for all facilities prior to 8/ 1/2006.




                                                4 of4
